                                                          U.S. Department of Justice
                                                          Peter J. Smith
                                                          United States Attorney
                                                          Middle District of Pennsylvania


William J. Nealon Federal Building   Ronald Reagan Federal Building   Herman T. Schneebeli Federal Building
Suite 311                            Suite 220                        Suite 316
235 N. Washington Avenue             228 Walnut Street                240 West Third Street
P.O. Box 309                         P.O. Box 11754                   Williamsport, PA 17701-6465
Scranton, PA 18503-0309              Harrisburg, PA 17108-1754        (570) 326-1935
(570) 348-2800                       (717) 221-4482                   FAX (570) 326-7916
FAX (570) 348-2037/348-2830          FAX (717) 221-4493/221-2246
                                                                      Please respond to:   Harrisburg
August 16, 2010

                                            NEWS RELEASE

   FORMER OWNER OF SCHUYLKILL PRODUCTS PLEADS GUILTY TO LARGEST
     DISADVANTAGED BUSINESS ENTERPRISE FRAUD IN USDOT HISTORY

     The United States Attorney’s Office for the Middle District
of Pennsylvania announced today that Ernest G. Fink, Jr., 64, of
Orwigsburg, Pennsylvania, pleaded guilty before Senior United
States District Court Judge Sylvia H. Rambo to conspiracy to
defraud the United States Department of Transportation(USDOT) and
commit wire and mail fraud in connection with a $136 million
disadvantaged business enterprise(DBE) fraud scheme which is the
largest DBE fraud in USDOT history. According to United States
Attorney Peter J. Smith, Mr. Fink faces up to five years’
imprisonment; $250,000 or twice the gross gain or loss in fines;
and mandatory restitution as a result of his guilty plea. No date
has been set for sentencing.

     Mr. Fink was part-owner and Chief Operating Officer of
Schuylkill Products Inc.(SPI) and its wholly-owned subsidiary CDS
Engineers Inc.(CDS) until April 2009 when SPI was sold. SPI was
based in Cressona, Pennsylvania, and manufactured concrete bridge
beams used on highway construction projects in Pennsylvania and
surrounding states. Mr. Fink admitted to participating in a 15-
year conspiracy to defraud USDOT, Pennsylvania Department of
Transportation(PennDOT) and Southeastern Pennsylvania
Transportation Authority(SEPTA) in connection with the federal
government’s DBE program.

     USDOT provides billions of dollars a year to states and
municipalities for the construction and maintenance of highways
and mass transit systems on the condition that small businesses,
owned and operated by disadvantaged individuals, receive a fair
share of these federal funds. In Pennsylvania, PennDOT and SEPTA
receive these funds and they require contractors to award a
percentage of their subcontracts to eligible DBE’s.
     Mr. Fink admitted today that between 1993 and 2008 he and
other executives at SPI diverted over 300 PennDOT and SEPTA
construction contracts to SPI and CDS that were worth $136
million and reserved for DBE’s. Mr. Fink and his co-conspirators
executed the scheme by using a small Connecticut highway
construction firm known as Marikina Construction Corporation as a
front company to obtain these lucrative government contracts.

     Marikina was owned by Romeo P. Cruz of West Haven,
Connecticut, a naturalized American citizen born in the
Philippines. Marikina was certified by PennDOT and SEPTA as a
DBE. Mr. Fink admitted that although Marikina received the DBE
contracts on paper, all the work was performed by SPI and CDS
personnel, and SPI and CDS received the majority of the profits.
In exchange for letting SPI and CDS use its name, Marikina was
paid a small fixed-fee, set by SPI.

     The scheme was carried out for over 15 years because of the
numerous fraudulent steps the co-conspirators took to conceal the
scheme. Mr. Fink admitted that SPI and CDS personnel routinely
pretended to be Marikina employees by using Marikina business
cards, email addresses, stationery, and signature stamps, as well
as using magnetic placards and decals bearing the Marikina logo
to cover up SPI and CDS logos on SPI and CDS vehicles.

     Previously, three former executives associated with SPI, CDS
and Marikina entered guilty pleas for their roles in the scheme.
Romeo P. Cruz, the former owner of Marikina, pleaded guilty to
conspiracy and tax fraud charges in 2008 and 2009. Timothy G.
Hubler, of Ashland, Pennsylvania, CDS’ Vice-President in charge
of field operations, pleaded guilty to conspiracy and tax fraud
charges in 2008. Dennis F. Campbell, of Orwigsburg, Pennsylvania,
SPI’s former Vice-President in charge of sales and marketing
pleaded guilty to conspiracy charges in 2008. All three await
sentencing.

     SPI’s former co-owner, President and CEO Joseph W. Nagle of
Deerfield Beach, Florida, was indicted for his role in the scheme
along with Fink on November 19, 2009. The trial in that case is
scheduled to begin October 4, 2010 in federal court in
Harrisburg, Pennsylvania.

     The investigation was conducted by the FBI, the U.S.
Department of Transportation Inspector General’s Office, the U.S.
Department of Labor Inspector General’s Office, and the Criminal
Investigation Division of the IRS. Senior Litigation Counsel
Bruce Brandler is supervising the prosecution.

                              ****
